No. 20-5813
In the Supreme Court of the United States

GLENN YOUNG,
Petitioner
vs.

DARREL VANNOY, WARDEN,
Respondent.

On Petition for A Writ Of Certiorari
to the United States Court of Appeals for the Fifth Circuit
REPLY TO RESPONDENT’S BRIEF IN OPPOSITION

GLENN YOUNG
PRO SE PETITIONER
457113, PINE—2
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

.

RECEIVED
MAR 2 - 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS
TABLE OF CONTENTS

1

INDEX TO APPENDICES

2

TABLE OF AUTHORITIES

3

REASONS FOR GRANTING AND STAYING THE WRIT

1

I.

THE PETITION DOES NOT MERELY DUPLI CATION THE QUESTION
PRESENTED IN EDWARDS V. VANNOY..................................................... 1

II.

YOUNG’S LAST TWO QUESTIONS ARE COMPELLING ENOUGH TO
CALL FOR AN EXERCISE OF THE COURT’S SUPERVISORY POWER
AND ARE NOT JUST AN INVITATION FOR THE COURT TO
FUNCTION AS A COURT OF ERROR CORRECTION
A.

Young’s Insufficiency of the Evidence Claim is based on the standard
announced in Jackson v. Virginia........................................................ 2

B.

Young’s Ineffective-Assistance-of-Counsels are Supported by the
Record and Establish Fact Driven Inquiries that Clearly Established
Federal Law Dictates Should Have Been Resolved at an Evidentiary
Hearing.......................... ...... ............................................................... 3

CONCLUSION.

5

INDEX TO APPENDICES
Attachment

Page

A

Affidavit in Application for Search Warrant

1

B

Search Warrant

3

C

Officer Lane E. Smith’s May 11, 2007 Narrative Supplement

4

QTED TABLE OF AUTHORITIES

li

CASES

PAGE NUMBER

Edwards v. Vannoy, 140 S.Q. 2737 (2020)

1

Jackson v. Virginia, 443 U.S. 307, 99 S.Q. 2781 (1979)

2

Ramos v. Louisiana, 140 S.Q. 190 (2020)

1

Schriro v. Landrigan, 550 U.S. 465,127 S.Q. 1933 (2012)

3

Smith v. Cain, 708 F.3d 628 (5 Cir. 2013)

3

STATUTES AND RULES
Rule 10 of the United States Supreme Court... .

ill

.4

REASONS GRANTING AND STAYING THE PETITION
The respondent acknowledged that Young was convicted by a nonunanimous jury in a case where a federal magistrate judge conceded the case was
not a slam dunk. Respondent also acknowledged that Young’s “other challenges to
his conviction [are] ... fact-intensive[.]” BIO, p.l. Even so, Respondent argues
that Young’s claims are not worthy of “the Court’s attention because they are
specific to [him] and raise no issues touching upon matters of national concern.”
BIO, p. 1. Young is a citizen of Louisiana and a United States citizen with certain
inalienable rights, privileges and immunities which may not be contravened
without due process of law. Thus Young is seeking his equal protection right as a
citizen of the United States.
I.

THE PETITION DOES NOT MERELY DUPLICATION THE QUESTION
PRESENTED IN EDWARDS V. VANNOY
The question presented in Edwards v. Vannoy has been submitted and

argued before the Court. Neither Young, or the Respondent, has any new
argument concerning the retroactivity of the Court’s ruling in Ramos v. Louisiana,
140 S.Ct. 190. Accordingly, as the Respondent concluded, “the Court should hold
Young’s petition” pending the disposition of Edwards v. Vannoy. BIO. 6.
II.

YOUNG’S LAST TWO QUESTIONS ARE COMPELLING ENOUGH TO
CALL FOR AN EXERCISE OF THE COURT’S SUPERVISORY POWER
AND ARE NOT JUST AN INVITATION FOR THE COURT TO
FUNCTION AS A COURT OF ERROR CORRECTION.
The respondent contends Young’s petition repeats the claims he presented

to the lower courts and that he failed to identify split authority or unresolved

1

issues of federal law. The Respondent’s assertion that Young’s complaint is “that
the lower courts misapplied ... ‘settled law”’ is misleading. BIO, p. 6.
A.

Young’s Insufficiency of the Evidence Claim is based on the standard
announced in Jackson v. Virginia.

In its opposition, Respondent did as the lower courts have done in allegedly
addressing Young’s claims on their merit: the applicable standard is quoted but
there is a failure to apply the standard to the issue and/or question presented for
review. It is hard to imagine how a court, or a respondent, is able to quote
jurisprudence and then make legal conclusions without addressing how the
applicable standard precludes a petitioner from obtaining relief. It is objectively
unreasonable to say Young constructively possessed cocaine when the drugs, in
the first instance, were illegally seized. The State’s best evidence did not
establish that Young constructively possessed cocaine; and, according to
Respondent, “[tjhere is nothing ‘rare’ about this alleged misapplication of state
law that warrants certiorari review.” BIO, p. 7 (emphasis added).
Contrary to Respondent’s misleading assertion, Young’s complaint is not
^ about the “misapplication of state law.” Young’s complaint is that he is entitled to
relief because the lower courts decisions were either contrary to, or involved, an
unreasonable application of federal law as determined by the United States
Supreme Court. Under the standard announced in Jackson v. Virginia, 443 U.S.
307, 99 S. Ct 2781, 61 L. Ed2d 560 (1979) the state of Louisiana did not establish
that Young had “sufficient control and dominion to establish constructive

2

possession.” BIO, p. 7. As for the allegation that Young was positively identified
as a person who Illegally used a firearm, the jury’s decision to convict was
irrational under the Jackson standard. The alleged victim, Thomas, initially
identified several people whom, he claimed, were responsible for shooting at his
vehicle. He did not include Young in the identification. It wasn’t until sometime
later Thomas chose to include Young amongst the group who supposedly shot up
his vehicle. See Attachment C, p. 4 (attached for convenience).
B.

Young’s Ineffective-Assistance-of-Counsel claims are Supported by
the Record and Establish Fact Driven Inquiries under Clearly
Established Federal Law, as Determined by the United States
Supreme Court, Dictates Should Have Been Resolved at an
Evidentiary Hearing.

As a matter of principle, Young submits the warrant should have been made
a part of the record, not only for appellate purposes but also when the federal
district court instructed Respondent to furnish a copy of the state court record in
this matter. Young is attaching a copy of the warrant and the affidavit for the
search warrant as a matter of convenience. See Attachments A and B. The
Respondent’s claim, that “the record contains scant details about what happened
during the trial,” is a mischaracterization. And where the state court record cannot
be used to resolve Young’s issues, the federal district court should have granted
an evidentiary hearing to allow Young prove his “factual allegations, which, if
true, would entitle [him] to federal relief.” Schriro v. Landrigan, 550 U.S. 465,
474-75, 127 S.Ct. 1933, 1940, 167 L.Ed.2d 836 (2012) (internal citations and
quotations omitted). Cf. Smith v. Cain, 708 F.3d 628, 631 (5 Cir. 2013). Also, the

3

trial transcript does contain “details about what happened during the trial.” More
importantly, rather than regurgitate a bunch of case law, Young detailed his trial
counsel’s deficient performance and briefed this honorable Court, and the lower
courts, of how that deficient performance prejudiced his defense.
Young’s counsel failed to challenge the unlawful seizure of evidence that
went beyond the scope of the warrant. The second (unlawful) search and seizure
took place after Detective Smith had lawfully executed and returned on a valid
search warrant: Officer Recchia made an unlawful entry into the home because he
said the search was the product of a narcotics investigation he was a part of.
Young’s claim, in part, is that his trial counsel rendered ineffective assistance,
which prejudiced his defense, because counsel failed to object to and challenge the
fruit of the unlawful search and seizure. Again, whether counsel’s attorney’s
objection would have been successful or not, is irrelevant. The jury heard
uncorroborated and unsolicited testimony from a law enforcement agent that drugs
were the primary target of the search warrant and the guns and ammunition were
secondary, which is patently false. See Attachments A and B.
Young is not inviting the Court to function as a court of errors, as
Respondent suggests. He is, however, appealing to the Court’s judicial discretion
to correct the lower court’s departure from the accepted and usual course of
judicial proceedings. Supreme Court Rule 10.

4

CONCLUSION
Young respectfully asks the Court to grant his petition or, in the alternative,
hold his petition pending the resolution of Edwards v. Vannoy.

Respectfully submitted,

GLENNYOUNi
Date: February 12, 2021

5

